<html>
<title> - H.R. 4255, THE ACCOUNTABILITY IN GRANTS ACT OF 2012</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
          H.R. 4255, THE ACCOUNTABILITY IN GRANTS ACT OF 2012

=======================================================================



                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON ENERGY AND POWER

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 11, 2012

                               __________

                           Serial No. 112-173


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
82-931                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman

JOE BARTON, Texas                    HENRY A. WAXMAN, California
  Chairman Emeritus                    Ranking Member
CLIFF STEARNS, Florida               JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky                 Chairman Emeritus
JOHN SHIMKUS, Illinois               EDWARD J. MARKEY, Massachusetts
JOSEPH R. PITTS, Pennsylvania        EDOLPHUS TOWNS, New York
MARY BONO MACK, California           FRANK PALLONE, Jr., New Jersey
GREG WALDEN, Oregon                  BOBBY L. RUSH, Illinois
LEE TERRY, Nebraska                  ANNA G. ESHOO, California
MIKE ROGERS, Michigan                ELIOT L. ENGEL, New York
SUE WILKINS MYRICK, North Carolina   GENE GREEN, Texas
  Vice Chairman                      DIANA DeGETTE, Colorado
JOHN SULLIVAN, Oklahoma              LOIS CAPPS, California
TIM MURPHY, Pennsylvania             MICHAEL F. DOYLE, Pennsylvania
MICHAEL C. BURGESS, Texas            JANICE D. SCHAKOWSKY, Illinois
MARSHA BLACKBURN, Tennessee          CHARLES A. GONZALEZ, Texas
BRIAN P. BILBRAY, California         TAMMY BALDWIN, Wisconsin
CHARLES F. BASS, New Hampshire       MIKE ROSS, Arkansas
PHIL GINGREY, Georgia                JIM MATHESON, Utah
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                JOHN BARROW, Georgia
CATHY McMORRIS RODGERS, Washington   DORIS O. MATSUI, California
GREGG HARPER, Mississippi            DONNA M. CHRISTENSEN, Virgin 
LEONARD LANCE, New Jersey            Islands
BILL CASSIDY, Louisiana              KATHY CASTOR, Florida
BRETT GUTHRIE, Kentucky              JOHN P. SARBANES, Maryland
PETE OLSON, Texas
DAVID B. McKINLEY, West Virginia
CORY GARDNER, Colorado
MIKE POMPEO, Kansas
ADAM KINZINGER, Illinois
H. MORGAN GRIFFITH, Virginia

                                 7_____

                    Subcommittee on Energy and Power

                         ED WHITFIELD, Kentucky
                                 Chairman
JOHN SULLIVAN, Oklahoma              BOBBY L. RUSH, Illinois
  Vice Chairman                        Ranking Member
JOHN SHIMKUS, Illinois               KATHY CASTOR, Florida
GREG WALDEN, Oregon                  JOHN P. SARBANES, Maryland
LEE TERRY, Nebraska                  JOHN D. DINGELL, Michigan
MICHAEL C. BURGESS, Texas            EDWARD J. MARKEY, Massachusetts
BRIAN P. BILBRAY, California         ELIOT L. ENGEL, New York
STEVE SCALISE, Louisiana             GENE GREEN, Texas
CATHY McMORRIS RODGERS, Washington   LOIS CAPPS, California
PETE OLSON, Texas                    MICHAEL F. DOYLE, Pennsylvania
DAVID B. McKINLEY, West Virginia     CHARLES A. GONZALEZ, Texas
CORY GARDNER, Colorado               HENRY A. WAXMAN, California (ex 
MIKE POMPEO, Kansas                      officio)
H. MORGAN GRIFFITH, Virginia
JOE BARTON, Texas
FRED UPTON, Michigan (ex officio)

                                  (ii)


                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Ed Whtifield, a Representative in Congress from the 
  Commonwealth of Kentucky, opening statement....................     1
    Prepared statement...........................................     3
Hon. Bobby L. Rush, a Representative in Congress from the State 
  of Illinois, opening statement.................................     7
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................     8
    Prepared statement...........................................    10
Hon. Joe Barton, a Representative in Congress from the State of 
  Texas, opening statement.......................................    11
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, opening statement...............................    11

                               Witnesses

Craig E. Hooks, Assistant Administrator for Administration and 
  Resources Management, Environmental Protection Agency..........    71
    Prepared statement...........................................    73
    Answers to submitted questions...............................   164
Daniel Simmons, Director of Regulatory and State Affairs, 
  Institute for Energy Research..................................    90
    Prepared statement...........................................    93
Andrew Light, Senior Fellow, Center for American Progress, and 
  Associate Director, Institute for Philosophy and Public Policy, 
  George Mason University........................................   102
    Prepared statement...........................................   105
    Answers to submitted questions...............................   171
Elisa Derby, Senior Program Officer, Winrock International.......   125
    Prepared statement...........................................   127
    Answers to submitted questions...............................   174
David W. Kreutzer, Research Fellow in Energy Economics and 
  Climate Change, The Heritage Foundation........................   143
    Prepared statement...........................................   145

                           Submitted Material

H.R. 4255, the Accountability in Grants Act of 2012, submitted by 
  Mr. Whitfield..................................................     5
Memorandum, dated September 11, 2012, Re: Supplemental 
  Information on EPA's International Grantmaking, with 
  supplemental material, submitted by Mr. Waxman.................    13
Statement, dated September 11, 2012, of Nan Swift, Federal 
  Affairs Manager, National Taxpayers Union, submitted by Mr. 
  Whitfield......................................................   159
Letter, dated April 9, 2012, from Thomas A. Schatz, President, 
  Council for Citizens Against Government Waste, to 
  Representatives in Congress, submitted by Mr. Whitfield........   163


          H.R. 4255, THE ACCOUNTABILITY IN GRANTS ACT OF 2012

                              ----------                              


                      Tuesday, September 11, 2012

                  House of Representatives,
                  Subcommittee on Energy and Power,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:20 a.m., in 
room 2123 of the Rayburn House Office Building, Hon. Ed 
Whitfield (chairman of the subcommittee) presiding.
    Members present: Representatives Whitfield, Walden, Terry, 
Burgess, Bilbray, Scalise, Olson, McKinley, Pompeo, Griffith, 
Barton, Upton (ex officio), Rush, and Waxman (ex officio).
    Staff present: Gary Andres, Staff Director; Anita Bradley, 
Senior Policy Advisor to Chairman Emeritus; Allison Busbee, 
Legislative Clerk; Andy Duberstein, Deputy Press Secretary; 
Cory Hicks, Policy Coordinator, Energy and Power; Heidi King, 
Chief Economist; Ben Lieberman, Counsel, Energy and Power; Mary 
Neumayr, Senior Energy Counsel; Phil Barnett, Democratic Staff 
Director; Alison Cassady, Democratic Senior Professional Staff 
Member; Greg Dotson, Democratic Energy and Environment Staff 
Director; Caitlin Haberman, Democratic Policy Analyst; and 
Karen Lightfoot, Democratic Communications Director and Senior 
Policy Advisor.

  OPENING STATEMENT OF HON. ED WHITFIELD, A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF KENTUCKY

    Mr. Whitfield. I would like to call this hearing to order 
this morning.
    Today, we are going to have a legislative hearing on H.R. 
4255, the Accountability and Grants Act, which was introduced 
recently. And I might say that all of us when we are back home 
in our districts hear people talk all the time about the 
Federal debt. And as you know, it is now around $16 trillion. 
And they are always asking the question, why is it that you all 
in Washington cannot seem to ever get spending under control? 
And we all know that there is not one piece of legislation that 
is going to solve that problem. But this is one piece of 
legislation that many of us believe is a small step in the 
right direction, and it does involve real money, but in many 
ways I think we could say that it is really a symbolic gesture 
that does save money.
    Now, our friends on the other side of the aisle had a memo 
that they sent out on this legislation and it says, ``the data 
does not support the majority's assertions that the Obama 
administration has intensified grant-making from EPA for 
international activities that do not benefit the American 
people.'' Well, I would say, first of all, I introduced this 
legislation and I never asserted that the Obama administration 
intensified grant-making for international activities. I am 
simply saying that ever since the Clean Air Act was written, 
this Section 1703 has been in there allowing money to be spent 
for international purposes through grants out of EPA. And the 
Bush administration did it, Obama administration did it, the 
Clinton administration did it, so everyone is doing it.
    But the purpose of this legislation is simply to take one 
small step to show the American people that at this time in our 
Nation's history when we have a $16 trillion Federal debt that, 
yes, at least temporarily, let us stop international grant-
making through EPA. And I am not even going to argue that there 
hasn't been some benefit in these grants. But I would argue 
that, right now, one of the major factors facing our country is 
a debt load that we cannot continue with over the long-term. So 
if we cannot pass a piece of legislation like this, then I 
would say our opportunities of trying to curtail this debt is 
almost hopeless.
    So this bill is limited in scope and applies only to grants 
and other financial assistance under Section 103 of the Clean 
Air Act, which authorizes the administrator to undertake 
certain research, investigation, and training. Now, we know 
that the money has gone to the Chinese for swine study, we know 
money has gone to the Ukraine, has gone to Polish 
municipalities regarding landfill gas, we know it has gone to 
Indonesia, we know a lot of it has gone to the United Nations, 
and all of these projects may be perfectly fine, but when we 
have this kind of debt, we are simply trying to make a 
statement--let us curtail this for a period of time. And that 
is what this legislation is designed to do.
    And as we go through this hearing, we will get more into 
the specifics of it. But I would reiterate once again certainly 
not my purpose, not my intent to try to jump on the Obama 
administration for doing this. This is a government program 
that has gone on for too long. At this time, we think it should 
be halted. So that is what it is all about.
    And at this time, I would yield to the distinguished 
gentleman from Illinois, Mr. Rush.

    [The prepared statement of Mr. Whitfield and H.R. 4255 
follow:]

[GRAPHIC] [TIFF OMITTED] 82931.001

[GRAPHIC] [TIFF OMITTED] 82931.002

[GRAPHIC] [TIFF OMITTED] 82931.003

[GRAPHIC] [TIFF OMITTED] 82931.004

 OPENING STATEMENT OF HON. BOBBY L. RUSH, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Rush. Thank you, Mr. Chairman.
    Well, I tell you, Mr. Chairman, in my 20 years in this 
Congress, I have never seen nor heard of anything that is so 
shallow, any legislation that appeared before any committee in 
the Congress that is so shallow, so ill-informed, so misplaced 
than this piece of legislation that we are wasting the 
taxpayers' money on right now by even considering this 
headline-grabbing attempt by your side to, one more time, cast 
the Obama administration in an ugly light.
    Mr. Chairman, we have been having hearings and you seem to 
know we are presiding again as one of the most ineffective and 
unproductive sessions of this subcommittee in recent years, and 
I thought that maybe over the summer, especially when we are 
under a new decorum here, I thought that at least we would have 
a different kind of attitude after the summer recess.
    But Mr. Chairman, I want to remind you that it has been a 
year now and Republicans on this subcommittee have passed 
message vote after message vote and they have brought up a 
variety of useless deals expressing some kind of dislike over 
the EPA, the Clean Air Act, and again the Obama administration. 
And this bill, I must remind you or predict that it is headed 
straight to the legislative scrap pile, a scrap heap where all 
legislation like this usually ends up. And this bill is not 
aimed at producing not one job for the American people or it is 
not aimed at moving our country's energy policy forward not 
even one iota, one scintilla.
    Today, we are having this hearing and trying to keep the 
EPA from awarding grants or contracts or partnerships in 
foreign countries that could be used to address global issues, 
not just issues that we are not affected by. These are global 
issues that most of this money goes toward, issues like climate 
change. Mr. Chairman, climate change doesn't just affect your 
constituents in Kentucky or my constituents in Illinois. We are 
living in a global environment and climate change affects all 
of us. Mercury emissions and things, all of us, they don't have 
any kind of consideration for national waters.
    Mr. Chairman, again, we are trying to embarrass the 
administration and we are going about this absolutely wrong. 
There are some facts--you might not want to hear them--but 
there are some facts. You know, the data provided by the EPA to 
this subcommittee shows that under President Obama, the EPA 
grants have resulted in less spending abroad than in the last 
year of the Bush administration. Foreign expenditures covered 
by the EPA grants total $8.5 million in 2008 and declined to $6 
million in 2011. Mr. Chairman, you might not want the American 
people to know, but I am going to tell them that most of this 
money of these grants, they don't go outside of the shores of 
this Nation. This money is spent right here at home at our 
universities, our research centers. These grants help keep 
American scientists and American students busy, keep them 
working. This is certainly not a boondoggle for some foreign 
government.
    Mr. Chairman, I think that we are really way off base with 
this. This would be laughable if it was not so serious in that 
we are wasting precious taxpayer dollars on this shallow non-
productive hearing on this bill that I guarantee you will not 
see the light of day.
    I yield back.
    Mr. Whitfield. Thank you very much, Mr. Rush.
    At this time, I recognize the gentleman from Michigan, Mr. 
Upton, for 5 minutes.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Well, thank you, Mr. Chairman.
    Today, as we know, we are going to be discussing H.R. 4255, 
the Accountability in Grants Act of 2012, which prohibits EPA 
from awarding grants to foreign countries under the Clean Air 
Act.
    Over the past 18 months, this committee has held numerous 
hearings on various actions taken by the EPA, and one recurring 
theme throughout our oversight is that the Agency has strayed 
away from its core mission. In fact, EPA is pursuing a wide-
ranging agenda that is neither specified nor required under the 
Clean Air Act. One example is the Agency's war on coal. EPA has 
no statutory authority to set America's energy policy, yet the 
Agency has embarked on a multi-pronged agenda to regulate coal 
out of existence. We will continue to push back hard against 
this anti-coal effort to protect jobs and ensure Americans 
continue to have access to affordable electricity.
    But today, we are addressing another one of the Agency's 
questionable activities--the sending of millions of dollars in 
grants overseas, particularly those grants awarded under 
Section 103 of the Clean Air Act. There is nothing in the Clean 
Air Act directing the EPA to send tax dollars abroad, and the 
American people would not be pleased to know we are subsidizing 
foreign projects at a time when millions of Americans are out 
of work and the national debt has now eclipsed $16 trillion.
    While the practice of awarding such grants to foreign 
recipients did not begin with this EPA, it is under this 
administration that foreign grant spending has nearly doubled. 
The Agency doled out nearly $12 million in foreign grants in 
'09, $22 million in 2010, $28 million in 2011. It is a 
disturbing trend that won't stop unless we do something about 
it.
    It is not merely an issue of money. In fact, many of these 
foreign grants raise questions for reasons that go well beyond 
the dollars and cents. Some of the grants go to countries like 
China, Russia, Brazil who rank among the largest foreign 
holders of U.S. treasury securities. In the case of China, we 
are talking about a country that holds more than a trillion 
dollars in U.S. debt, so we have the odd situation of borrowing 
money from a country and then giving back some of it in grants.
    Several grants go to foreign countries to help their 
industries deal with various pollution issues, but many of 
these foreign energy producers and manufacturers are in direct 
competition with their American counterparts. The fact that the 
very same EPA that is strangling our domestic industry with 
regulatory red tape is also sending checks that assist foreign 
competitors raises questions as well. In addition, many of 
these grants seem downright outlandish--$450,000 for the 
``Breathe Easy, Jakarta'' initiative. Somehow this spending has 
got to come to an end.
    The Accountability in Grants Act would prohibit any more 
American tax dollars from being used under Section 103 of the 
Clean Air Act for purposes outside of the U.S. In doing so, the 
bill will save taxpayer dollars and force the administration to 
focus on actual responsibilities here at home.
    And I yield back to Mr. Barton.
    [The prepared statement of Mr. Upton follows:]
    [GRAPHIC] [TIFF OMITTED] 82931.005
    
   OPENING STATEMENT OF HON. JOE BARTON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Barton. Well, thank you, Chairman Upton, and thank you, 
Chairman Whitfield, for scheduling a legislative hearing on 
H.R. 4255.
    During the EPA budget hearing back last spring, we asked a 
number of questions which were related to how the EPA was 
spending taxpayer monies at what would appear to be breakneck 
speeds. The economy is still struggling, although it is 
somewhat better, this Congress is facing some of the most 
difficult spending decisions in our history. As we all know, 
very soon, we are going to have to take up a bill to determine 
whether we want to allow the sequester to go forward or if we 
want to change it in some way.
    The Clean Air Act does allow EPA to issue grants to 
projects both here in the United States and around the world. 
Subcommittee staff have discovered that over 300 grants have 
been given to projects around the world in the last number of 
years. Since 2009, for example, we had almost $1 million that 
was given to China to study air pollution in that country, 
$200,000 to study something called ``clean cooking'' in 
Ethiopia, and $300,000 went towards methane recovery in 
Ecuador, just for example. We even sent almost $8 million for 
something called ``technical assistance'' in Russia. Several 
million dollars have gone to international groups such as 
United Nations. It is no wonder that the EPA's budget has gone 
up almost 34 percent during the Obama administration and is now 
over $10 billion per year.
    I don't believe, Mr. Chairman, that this type of spending 
reflects the priorities of the average American voter that vote 
for us to come to Washington. I just finished almost a dozen 
town hall meetings in my district down in Texas during August. 
Not once did I have a constituent stand up and tell me to spend 
more money for EPA grants overseas.
    So I am very glad, Mr. Chairman, that you put this bill 
forward and I hope on a bipartisan basis we can move it very 
expeditiously to full committee and then to the floor.
    With that, I yield back.
    Mr. Whitfield. Thank you very much.
    At this time, I recognize the gentleman from California, 
Mr. Waxman, for 5 minutes.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Thank you, Mr. Chairman.
    I note that the committee Republicans launched an 
investigation into EPA's long-standing practice of awarding 
grants for work abroad. This investigation was commenced last 
summer and the Republicans released a staff report saying that 
President Obama had doled out millions of dollars to foreign 
recipients. But this report was seriously flawed. Half of the 
grants they criticized President Obama for awarding actually 
started under the George W. Bush administration.
    So I wrote to Chairman Upton and Chairman Whitfield and 
explained that their report was incorrect, asked them to 
retract that report until they reviewed the facts more 
carefully. What do they do? They ignore the letter, just as 
they have been ignoring a lot of letters. EPA then provided the 
committee with a comprehensive list of 500 grants awarded in 
the last 10 years for projects with an international component. 
Republicans have used this data to argue the Obama 
administration has increased grant funding for foreign 
projects. In fact, almost half of these grants went to U.S.-
based university organizations, not foreign recipients, and 
many had only the most minor international connection.
    EPA calls a grant ``international'' if the grantee spends 
any money abroad at all, even if it is just to fly to a 
conference in a different country to get the perspectives of 
international experts. One grant on the list went to the 
University of Pittsburgh for research into air pollution in New 
York City. EPA Administrator Jackson explained this to the 
committee last February. She testified that very little of the 
money categorized as international actually went abroad.
    Well, after that hearing, we sent another letter to 
Chairman Whitfield raising concerns about how the committee 
Republicans were portraying EPA's international grant-making 
activities. Again, we didn't get a response. So we decided to 
ask EPA to tell us how much money the grantees actually spent 
abroad. And based on that data, we found that EPA grantees have 
spent less abroad on average in the Obama administration than 
they did during the last year of the Bush administration.
    And I would like to introduce into the record a 
supplemental memo that explains the reality of EPA's 
international grants program. And I hope, Mr. Chairman, without 
objection you will take that into the record.
    Mr. Whitfield. Without objection.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 82931.006
    
    [GRAPHIC] [TIFF OMITTED] 82931.007
    
    [GRAPHIC] [TIFF OMITTED] 82931.008
    
    [GRAPHIC] [TIFF OMITTED] 82931.009
    
    [GRAPHIC] [TIFF OMITTED] 82931.010
    
    [GRAPHIC] [TIFF OMITTED] 82931.011
    
    [GRAPHIC] [TIFF OMITTED] 82931.012
    
    [GRAPHIC] [TIFF OMITTED] 82931.013
    
    [GRAPHIC] [TIFF OMITTED] 82931.014
    
    [GRAPHIC] [TIFF OMITTED] 82931.015
    
    [GRAPHIC] [TIFF OMITTED] 82931.016
    
    [GRAPHIC] [TIFF OMITTED] 82931.017
    
    [GRAPHIC] [TIFF OMITTED] 82931.018
    
    [GRAPHIC] [TIFF OMITTED] 82931.019
    
    [GRAPHIC] [TIFF OMITTED] 82931.020
    
    [GRAPHIC] [TIFF OMITTED] 82931.021
    
    [GRAPHIC] [TIFF OMITTED] 82931.022
    
    [GRAPHIC] [TIFF OMITTED] 82931.023
    
    [GRAPHIC] [TIFF OMITTED] 82931.024
    
    [GRAPHIC] [TIFF OMITTED] 82931.025
    
    [GRAPHIC] [TIFF OMITTED] 82931.026
    
    [GRAPHIC] [TIFF OMITTED] 82931.027
    
    [GRAPHIC] [TIFF OMITTED] 82931.028
    
    [GRAPHIC] [TIFF OMITTED] 82931.029
    
    [GRAPHIC] [TIFF OMITTED] 82931.030
    
    [GRAPHIC] [TIFF OMITTED] 82931.031
    
    [GRAPHIC] [TIFF OMITTED] 82931.032
    
    [GRAPHIC] [TIFF OMITTED] 82931.033
    
    [GRAPHIC] [TIFF OMITTED] 82931.034
    
    [GRAPHIC] [TIFF OMITTED] 82931.035
    
    [GRAPHIC] [TIFF OMITTED] 82931.036
    
    [GRAPHIC] [TIFF OMITTED] 82931.037
    
    [GRAPHIC] [TIFF OMITTED] 82931.038
    
    [GRAPHIC] [TIFF OMITTED] 82931.039
    
    [GRAPHIC] [TIFF OMITTED] 82931.040
    
    [GRAPHIC] [TIFF OMITTED] 82931.041
    
    [GRAPHIC] [TIFF OMITTED] 82931.042
    
    [GRAPHIC] [TIFF OMITTED] 82931.043
    
    [GRAPHIC] [TIFF OMITTED] 82931.044
    
    [GRAPHIC] [TIFF OMITTED] 82931.045
    
    [GRAPHIC] [TIFF OMITTED] 82931.046
    
    [GRAPHIC] [TIFF OMITTED] 82931.047
    
    [GRAPHIC] [TIFF OMITTED] 82931.048
    
    [GRAPHIC] [TIFF OMITTED] 82931.049
    
    [GRAPHIC] [TIFF OMITTED] 82931.050
    
    [GRAPHIC] [TIFF OMITTED] 82931.051
    
    [GRAPHIC] [TIFF OMITTED] 82931.052
    
    [GRAPHIC] [TIFF OMITTED] 82931.053
    
    [GRAPHIC] [TIFF OMITTED] 82931.054
    
    [GRAPHIC] [TIFF OMITTED] 82931.055
    
    [GRAPHIC] [TIFF OMITTED] 82931.056
    
    [GRAPHIC] [TIFF OMITTED] 82931.057
    
    [GRAPHIC] [TIFF OMITTED] 82931.058
    
    [GRAPHIC] [TIFF OMITTED] 82931.059
    
    [GRAPHIC] [TIFF OMITTED] 82931.060
    
    [GRAPHIC] [TIFF OMITTED] 82931.061
    
    [GRAPHIC] [TIFF OMITTED] 82931.062
    
    Mr. Waxman. This hearing and the bill we are considering 
are a good illustration of what is wrong with this committee. 
Facts don't seem to matter. This bill proves that poor 
oversight leads to dumb legislation.
    There is another problem with this bill. Its entire premise 
is that the U.S. engagement with the rest of the world on 
environmental issues is wrong. We don't have enough money to 
send to those foreigners. That is the line we are hearing from 
the other side of the aisle. Well, the United States does not 
exist in a bubble. Pollution doesn't respect national borders. 
Pollution does not need a passport. That is why sustained U.S. 
international engagement by EPA and other Federal agencies is 
essential.
    When we wanted EPA to crack down on U.S. emissions of 
greenhouse gases, Republicans said it wouldn't do any good. We 
need an international response. Unilateral climate change would 
harm U.S. competitiveness. They say they want an international 
solution, but when EPA makes a grant to build global support 
for reducing emissions of methane or black carbon, which 
contribute to climate change, the same Members attack EPA for 
spending U.S. funds abroad. It is a cynical Catch-22.
    Committee Republicans ridicule ``Breathe Easy, Jakarta''--
this is their press release--for its name, but ignore that this 
modest $15,000 will help the Indonesian city transition away 
from leaded gasoline. They ignore the benefit of providing 
funding for cleaner cookstoves so that poor women and children 
in Haiti and other developing countries aren't exposed to 
deadly indoor air pollution. Well, no one at Mr. Barton's town 
hall meeting said they wanted it, but if they knew about it, I 
would think they would support it. We want to protect kids in 
other countries and help other countries protect their 
population from air pollution that causes mental retardation.
    One of our greatest strengths as Americans is our 
generosity to those in need. Sadly, we seem to regard 
compassion to the needy as a weakness, not a virtue, on this 
committee.
    And I want to add, even though my time is expired, that 
painting this room green does not make this committee green. 
And I otherwise will privately tell the chairman how ugly I 
think the walls are, but I don't want to say that publicly.
    I yield back my time.
    Mr. Whitfield. I didn't have anything to do with the color 
of these walls. Well, thank you very much for your opening 
statement.
    Mr. Hooks, we genuinely appreciate your being with us this 
morning, and I am reluctant to say that, not infrequently, we 
have to delay hearings for one reason or the other. And today, 
we are having a memorial service for the 9/11 victims in the 
Capitol that begins in a few minutes. So we are going to recess 
this hearing until 11:30. And I hope that is not too much of an 
inconvenience for you. But we do look forward to your 
testimony.
    And we will recess the hearing, then, until 11:30. And I 
know we have other witnesses after that and I hope that you all 
will bear with us because we do look forward to your testimony. 
And we will reconvene at 11:30.
    So at this time, the hearing is recessed.
    [Recess.]
    Mr. Whitfield. Thank you very much for being with us this 
morning, and we look forward to your testimony. And I will 
recognize you for 5 minutes for your opening statement, and 
then at the end of that time we will have questions for you. 
And Mr. Rush is here but he is in the anteroom. He will be 
right in but in the meantime we would like for you to go on and 
get started.

   STATEMENT OF CRAIG E. HOOKS, ASSISTANT ADMINISTRATOR FOR 
    ADMINISTRATION AND RESOURCES MANAGEMENT, ENVIRONMENTAL 
                       PROTECTION AGENCY

    Mr. Hooks. Chairman Whitfield, Ranking Member Rush, and 
members of the subcommittee, Mr. Chairman, thank you for the 
opportunity to testify today on H.R. 4255. This bill would 
prohibit the EPA from awarding grants under the Clean Air Act, 
Section 103, for any program, project, or activity, outside of 
the United States.
    Since 1972, administrations of both parties have used 
international grants awarded by EPA to support public health 
and environmental protection globally. These grants comprise a 
very small percentage of EPA's grant budget and are supported 
in part with appropriations from other agencies. Most of this 
money is spent here in the United States. In fact, from fiscal 
year 2008 through 2010, about \2/3\ of the total awarded 
through grants designated as international was allocated for 
work here in the United States.
    While EPA's investment in international grants is small, 
these grants support efforts to reduce trans-boundary and 
global environmental threats to the United States, reducing the 
cost and increasing the effectiveness of the Nation's 
environmental protection. They also serve broader U.S. foreign 
policy and economic interest.
    Section 103 grants are a key component of EPA's 
international grant portfolio. Among the programs supported 
with Section 103 grants that would be adversely impacted by 
H.R. 4255 are the Partnership for Clean Indoor Air, or PCIA, 
and the Partnership for Clean Fuels in Vehicles. These programs 
were launched by the Bush administration in 2002.
    The PCIA addresses the burning of solid fuels for household 
cooking and heating. Over half of the world's population uses 
these fuels, which cause indoor air pollution resulting in 
premature deaths of more than 2 million people annually.
    The PCFV reduces air pollution in developing and 
transitional companies by promoting the use of lead-free and 
low sulfur fuels and clean vehicles. These programs have 
produced outstanding results. The PCIA through EPA grants and 
other activities has enabled at least 9.3 million households to 
adopt cleaner technologies and fuels improving the health and 
livelihood of 52.4 million people in developing countries. 
Similarly, the Partnership for Clean Fuels in Vehicles has 
contributed to more than 180 countries eliminating lead from 
fuels and opened international markets to American 
manufacturers of advanced air pollution control equipment.
    This legislation would also inhibit EPA's ability to 
address overseas emissions of toxic mercury pollution. When 
mercury deposition is highest in the United States, domestic 
sources are the largest contributors. However, mercury in the 
atmosphere can be transported globally. In much of the U.S., 
mercury from global sources dominates the deposition. 
Furthermore, much of the marine fish that Americans consume 
comes from waters far from our shores. Therefore, to fully 
protect Americans from toxic effects of mercury contamination, 
a global effort is required. EPA has provided funding under 
Section 103 to the United Nations' Environmental Program to 
support efforts to reduce mercury use in products and 
manufacturing processes, as well as mercury emissions in the 
atmosphere from a variety of sources.
    H.R. 4255 would also adversely impact the Global Methane 
Initiative, or GMI, a program initiated under the Bush 
administration to reduce methane emissions. Methane is a potent 
greenhouse gas and contributes to the formation of tropospheric 
ozone, an air pollutant that is transported across borders and 
causes significant health problems in the U.S. and around the 
world. Under the GMI, EPA's Section 103 grants support work 
with 41 countries, international financial institutions, and 
hundreds of private sector organizations to reduce methane 
emissions. GMI grants have directly provided over $2.7 million 
in benefits to U.S. companies, universities, and nonprofit 
organizations. These grants have created significant market 
opportunities for U.S. technologies, goods, and services. In 
total, U.S. support for GMI has leveraged more $398 million in 
additional investment in methane-reducing projects around the 
globe.
    Countries need adequate governmental structures to enforce 
environmental standards. This can benefit U.S. companies by 
helping to ensure that foreign companies are subject to similar 
regulatory requirements. H.R. 4255 would hinder our ability to 
promote strong governance that continued award of Section 103 
grants that assist U.S. trading partners in developing 
effective institutions.
    Finally, H.R. 4255 would inhibit international scientific 
collaboration that strengthens the quality of EPA-supported 
research by prohibiting travel of Section 103 grant-funded 
scientists to attend international meetings or work with 
scientists at foreign institutions. Such a limitation would 
conflict with well established international collaboration 
practices of Federal science agencies.
    Section 103 grants play an important role in improving the 
quality of the U.S. and the world environment providing 
business opportunities for U.S. companies and supporting U.S. 
foreign policy interests. The EPA believes that H.R. 42 would 
cripple the Agency's ability through grants to address harmful 
air pollutants that affect both the global and domestic 
environment.
    Thank you for inviting me here today and I look forward to 
answering any of your questions.
    [The prepared statement of Mr. Hooks follows:]
    [GRAPHIC] [TIFF OMITTED] 82931.063
    
    [GRAPHIC] [TIFF OMITTED] 82931.064
    
    [GRAPHIC] [TIFF OMITTED] 82931.065
    
    [GRAPHIC] [TIFF OMITTED] 82931.066
    
    [GRAPHIC] [TIFF OMITTED] 82931.067
    
    [GRAPHIC] [TIFF OMITTED] 82931.068
    
    [GRAPHIC] [TIFF OMITTED] 82931.069
    
    Mr. Whitfield. Thanks, Mr. Hooks, very much.
    I will recognize myself for 5 minutes and then we will give 
other Members an opportunity.
    Has the EPA taken a formal position on opposing or 
supporting the legislation? I know you said it would cripple 
the Agency so I am assuming you are not going to support it, 
but have you adopted a formal position of opposition to it?
    Mr. Hooks. We have not adopted a formal opposition to this 
proposed legislation, no, sir.
    Mr. Whitfield. OK. Now, these 103 grants have certainly 
been in the Clean Air Act for many years, and as of the end of 
last year, at least from the information I was able to obtain 
from EPA, there was not any formal agenda or procedure for 
determining how these grants would be made. Do you all have a 
formal procedure adopted at EPA on how the decision will be 
made on these grants?
    Mr. Hooks. The majority of our grants are actually awarded 
competitively. International entities have the ability to 
compete for certain grants. In these instances, they were 
awarded through a competitive process.
    Mr. Whitfield. OK. The reason I was asking the question, we 
had received recently a grants policy issuance, GPI 1204, award 
and administration of foreign grants, and I was just wondering, 
is this an official document of EPA and do you know what I am 
talking about or have you seen it?
    Mr. Hooks. Yes, I do. We periodically actually review our 
internal grant policies and create additional guidance as 
necessary to ensure consistent management or assistance 
agreements for all types of award recipients. Separate and 
apart from the subcommittee's investigation, we had already 
identified updating our awards for entities as a priority for 
this fiscal year.
    Mr. Whitfield. OK. Now, when we have looked at Section 103 
of the Clean Air Act and you read that in its entirety, there 
is not any mention whatsoever of any grant for international 
purposes. So what is the legal authority of EPA for making 
these grants?
    Mr. Hooks. Actually, I believe there is a couple of 
authorities that provide our ability to award these grants. We 
use Section 103(a) and Section 103(b), but in addition to that, 
we actually refer to Section 102(f) of NEPA, the National 
Environmental Policy Act.
    Mr. Whitfield. So you do rely on 103(a) and 103(b) as well?
    Mr. Hooks. Correct.
    Mr. Whitfield. What specific language?
    Mr. Hooks. Well, maybe it is specific language by omission 
as opposed to directly--it does not state directly 
international entities. However, it does say that it directs 
EPA to establish national research and development program, 
including for any activities related to the prevention of 
control of air pollution.
    Mr. Whitfield. Yes.
    Mr. Hooks. Given the trans-boundary and international 
nature of air pollution, we think it provides us the authority 
to deal with air pollution issues at its source as well.
    Mr. Whitfield. Do you need the NEPA authority, then, if you 
have 103(a) and (b)? Do you need NEPA authority?
    Mr. Hooks. It is just an additional authority that we use 
in this instance.
    Mr. Whitfield. OK. So under NEPA, then, there are various 
Federal agencies that have the authority--at least that you 
all's position--to make these international grants?
    Mr. Hooks. Correct.
    Mr. Whitfield. OK. OK. In order for any of the above 
statutes to apply internationally, they must be supplemented by 
NEPA 102(a). OK--102(f). All right. Now, where is that 
executive order that we were looking at a while ago? You know, 
as I said in my opening statement, you know, one of the 
concerns that we have, it is not that the Obama administration 
is doing any more than anyone else, although the total amount 
of grants from 2008 through 2011 is 78 million and in 2011 it 
was over 28 million, and in 2010 over 22 million, and I know 
not all of that has been identified as specifically for 
international, but as we are dealing with this debt, the reason 
we are focusing on this is that, you know, I think it is 
helpful--I think it is healthy to look at the agencies and they 
are spending--for example, China alone through this program has 
received over 3 or $4 million over the last 2 or 3 years.
    Mr. Hooks. Um-hum.
    Mr. Whitfield. And as you know, we are borrowing a lot of 
money from China to turn around and give them money back.
    So my time is expired, but at this time I recognize Mr. 
Rush for 5 minutes.
    Mr. Rush. Thank you, Mr. Hooks. Let us talk about China and 
the Obama administration in terms of sending checks to China. 
Can you tell me for the record were the majority of the funds 
from the international grants remain inside the U.S. or most of 
the money is sent overseas?
    Mr. Hooks. Right, the majority of our international grants 
as they have been defined are spent here in the United States.
    Mr. Rush. By whom and for what?
    Mr. Hooks. Principally, through private industry. It can 
also go to universities and nonprofits. The majority go to 
universities and nonprofits.
    Mr. Rush. For what?
    Mr. Hooks. To do a variety of things through a variety of 
very outstanding programs. The Global Methane Initiative which 
was launched back in 2004 is designed to reduce the amount of 
methane in our environment. The Clean Fuels and Vehicles 
Program designed to reduce leaded gasoline and low sulfur 
fuels. And Partnership for Clean Indoor air is designed to 
reduce the amount of exposure to wood stoves.
    Mr. Rush. Um-hum. Are you aware of any other nations having 
similar international obligation or international needs as it 
relates to pollution, any other nation that sends money similar 
to what we do?
    Mr. Hooks. Sure. I think that has been one of the beauties 
about these programs is the international component associated 
with them. Right now, there are 41 countries that participate 
in the Global Methane Initiative. I think there are over 115 
countries that are participating with the Clean Indoor Air 
initiative. And I am not sure exactly how many countries are 
participating with the Clean Fuels and Vehicles Program. But it 
is an international group of countries that are now 
participating and based largely in part on U.S.'s leadership.
    Mr. Rush. And if this bill were to pass, which I doubt very 
seriously, but if by some chance it passed the Senate, got to 
the President and if he signs it, this bill becoming a law, 
what would the impact of that be in terms of our international 
stature, particularly as it relates to pollution?
    Mr. Hooks. Well, EPA is certainly viewed as the 
international leader in terms of government entities. And so 
the rest of the world does turn to the EPA for its leadership 
advice and counsel. I think, you know, if this legislation were 
to pass, clearly, we would not be able to participate in 
programs such as these. But I think it would also have a very 
chilling effect in terms of our research, in terms of the 
research that we conduct. It would prohibit a university 
professor, if you will, going to Canada to participate in an 
international meeting. And much of the international work and 
scientific and technical work that we do is in large part based 
on an international effort in putting the best minds and 
putting the best science towards our environmental decision-
making.
    Mr. Rush. Thank you. What is the total percentage of EPA 
funds allocated to this program?
    Mr. Hooks. For our international grant activities, it is 
less than 1 percent of our EPA budget.
    Mr. Rush. But because we spend that less than 1 percent, 
then we have credibility in terms of the voice of the American 
people being heard and felt as it relates to global issues 
around the environment in this instance, including air 
pollution. Is that right?
    Mr. Hooks. That would definitely be correct. Again, like I 
said earlier, the rest of the country does look to EPA for its 
leadership, not only in our ability to promote capacity-
building and governance, but also they look to the United 
States Government for our technology as well. When we have the 
ability to go into these foreign countries, impart our 
knowledge, we actually can bring our technologies with us. For 
example, when the Partnership for Clean Fuels in Vehicles, you 
know, the fact that most of the continent of Africa is no 
longer using leaded fuel or is on target to no longer use 
leaded fuel, that enables our initial control technology to 
come into play. Catalytic converters would be a perfect 
example.
    Mr. Rush. Right. Well, I only have one more second. Let me 
say, I just cannot believe that if this bill passed, it kind of 
reminds me of a gag rag that we are muffling or gagging the 
voice of the American people as it relates to our environmental 
leadership, our strong voice that has been here present for the 
world. We lead the world in terms of environmental issues and 
matters. We are going to tie a gag rag around that voice, 
silence that voice as it relates to the American people if this 
bill passes.
    So thank you so very much.
    Thank you, Mr. Chairman.
    Mr. Whitfield. At this time, I recognize the gentleman from 
Nebraska, Mr. Terry, for 5 minutes.
    Mr. Terry. Thank you, Mr. Chairman.
    My mind started racing during this colloquy with Mr. Rush. 
In your statement you said that this bill would ``cripple'' the 
Agency's ability through grants to address harmful air 
pollutants that affect both global and domestic environment. 
And in your colloquy here----
    Mr. Hooks. Um-hum.
    Mr. Terry [continuing]. You had mentioned also that this is 
about--well, it is less than 1 percent of the budget. It seems 
like an extreme exaggeration, then, to reach a conclusion if 1 
percent of the EPA's budget was eliminated, that that would 
equal 100 percent of all new technologies and research like the 
catalytic converter. So was the catalytic converter a result of 
foreign grants?
    Mr. Hooks. No, that was the result of the----
    Mr. Terry. That is my point. I think in this colloquy you 
were leaving us with the impression purposely that there would 
be no new technologies, and I think that is so much of an 
exaggeration that it probably impacted your credibility. But I 
wanted to talk about how much of that 1 percent is going to the 
UN. As I understand, some of that money is going to the United 
Nations Environmental Program, is that correct?
    Mr. Hooks. That is correct.
    Mr. Terry. Do you have the amount?
    Mr. Hooks. I don't have that with me.
    Mr. Terry. But in general, then, could you tell me once we 
provide those funds to UNEP, do we have any control over where 
those dollars go?
    Mr. Hooks. In the award of these grants, we actually manage 
and track these grants the same way that we would a grant here 
in the United States. They would be subject to the same pre-
award processing and requirements in terms of reporting as our 
U.S. entities if they were to receive a grant.
    Mr. Terry. You are sure that UNEP is, then, providing you 
with the documentation to show how those dollars are being used 
once the grant has been issued to UNEP.
    Mr. Hooks. Yes, one of the requirements is that grantees 
supply----
    Mr. Terry. OK.
    Mr. Hooks [continuing]. Us with----
    Mr. Terry. So those documents would be easy--could you 
provide those to the committee because I would like to see how 
they are actually using those dollars and how we are tracking 
those.
    Mr. Hooks. Yes, sir.
    Mr. Terry. So do you know offhand, though, I am really kind 
of confused. As I understand, the dollars just go to UNEP and 
then the grant is issued, but how do you follow up? Then, after 
that, UNEP sends you the documents probably outlined in the 
grant?
    Mr. Hooks. It is going to be--well, I would have to 
actually get back to you specifically on----
    Mr. Terry. OK. If you would do that.
    Mr. Hooks. I can do that.
    Mr. Terry. All right. All right, I have no further 
questions, Mr. Chairman.
    Mr. Whitfield. All right, thanks, Mr. Terry.
    At this time, I recognize the gentleman from West Virginia, 
Mr. McKinley, for 5 minutes.
    Mr. McKinley. Thank you, Mr. Chairman.
    I would like to follow up just a little bit more on that 
question, maybe make sure I heard correctly. When grants and 
others are given to the countries, universities, wherever, I am 
curious about the follow-up, particularly there were several--
well, take some of the more serious ones was the demonstration 
project for the abatement of nitrous oxide emissions using--
anyway, it was a demonstration project. What did we do? Did we 
follow up?
    Mr. Hooks. What particular----
    Mr. McKinley. This was with Taiwan, funded in '02. I am 
just curious. Do we have a set pattern of following up to see 
that, once money has been given to something, we have a 
procedure to see what they have done with it?
    Mr. Hooks. Once EPA makes an international grant award, we 
carefully monitor the grant. This includes administrative and 
programmatic post-award monitoring----
    Mr. McKinley. Well, what happens afterwards, if we do a 
pilot project that ends in a couple years or whatever, do we 
follow back up again to see was this just a one-shot deal? Or 
do we make that a condition? Is that a condition of the grant 
that they are going to continue to fund this project?
    Mr. Hooks. No, sir.
    Mr. McKinley. OK. So things like--there is a series of them 
like that that we are just giving money away and we are not 
following up that pilot project and clean projects and 
processes in Norway. The Diesel Retrofit Demonstration Project 
in Thailand, did we follow up to find out are they continuing 
to work with diesel fuels in that country or is this just a 
one-shot deal?
    Mr. Hooks. I don't know specifically about the particular 
projects you might be referencing to, but I can tell you just 
in terms of scientific growth, you know, we learn from these 
projects. One of the great benefits in terms of what we might 
be piloting or demonstrating in a particular country is that we 
have the ability to take the lessons learned and transfer that 
to other regions.
    Mr. McKinley. But when we fund these other projects, if 
they just die on the vine, if they are just a one-shot deal, I 
am just curious, what American project that maybe could have 
put some people to work here and researchers, something in 
America that lost out in the competitive research? And I look 
at this one that we did a field survey of endangered whale 
population offshore of Russia. What American project lost out 
to that?
    Mr. Hooks. Well, I am not sure if that is a Clean Air Act--
--
    Mr. McKinley. Clean Air Act has to do with whales?
    Mr. Hooks. I am not sure if that is a Clean Air act. There 
are other authorities----
    Mr. McKinley. No, this is your list that you all provided 
all the--I am just curious about that, but obviously you don't 
have the answer for that.
    Mr. Hooks. Well, I believe that we supplied the committee 
all of our international----
    Mr. McKinley. I am just curious with all this money we are 
spending overseas, whether it is 30 million or $5 million, when 
the EPA itself recognizes that the biggest detriment to 
healthcare in America is indoor air quality--in its own Web 
site, the EPA publishes that it is 96 times worse indoors than 
outdoors--but yet we are spending money on--I don't know what 
we are doing in America to focus on indoor air quality. I don't 
see much at all on that, and that is the issue that we know 
when we have the asthma attacks, we have other issues they are 
talking about, why aren't we educating our American people on 
where our air quality's issues are rather than worrying about 
the endangered whales off Russia?
    Mr. Hooks. Well, as it relates to air quality, air 
pollution is an international problem. It has been fairly well 
documented that certainly pollution from Asia is deposited here 
in this country, the same as pollution that is generated here 
in this country goes across the Atlantic and gets deposited in 
Europe. International air pollution problems is an 
international----
    Mr. McKinley. I am not denying that but I am just saying at 
this time when we can't afford it, I think I would rather spend 
my money taking care of American citizens and educating 
American folks about indoor air quality or whatever it is than 
worrying about some of these others.
    So what I am hearing wrapping up, we don't have necessarily 
or you are not aware of a follow-up program to find out after 
we do a demonstration project, after we do a start-up, there is 
no follow-up to see that they continue with that. We don't have 
a prioritization of where we are going to spend money on indoor 
air quality in America but we are sure spending a lot of money 
dealing with indoor air quality overseas. And lastly is that 
apparently we are losing out. Some of our American companies 
are losing out in applications to foreign governments. I would 
be curious how many American applications were lost in the 
shuffle.
    Mr. Hooks. Well, I need to go back to one of the advantages 
of these grants is actually creating market opportunities for 
U.S. industry here in this country. The Global Methane 
Initiative, while the EPA component--it is a multiple-agency 
component, by the way. In fact, the majority of the money that 
has been distributed through these Section 103 grants has 
actually not come from EPA; it has actually come from the 
Department of State and USAID and other agencies as well.
    For example, I know that Caterpillar was able to sell 62 
megawatt generators to a coalmine in China for $100 million. 
MEGTEC, which is another large U.S. subsidiary here in this 
country was able to sell some thermal oxidizers for millions of 
dollars as well to overseas countries. It is, you know, putting 
our foothold into these countries that actually is good for 
U.S. industry as well.
    But as I said before, air pollution does not respect 
geopolitical boundaries. I think that was maybe stated in one 
of the opening statements. It does not respect geopolitical 
boundaries. So U.S. monies that can be spent at the source of 
pollution I think is a good use of our money because ultimately 
that deposition can impact our U.S. shores.
    Mr. Whitfield. Gentleman's time is expired.
    You know, Mr. Hooks, I may just make one comment here. You 
were talking about Caterpillar selling equipment, coalmines in 
China. As a result of EPA, we can't even build a new coal-
powered plant in America, so it is nice that you all like to 
see equipment going to China so they can mine coal.
    I recognize the gentleman, Mr. Pompeo from Kansas, for 5 
minutes.
    Mr. Pompeo. Thank you, Mr. Chairman. I am going to follow 
up on that.
    You know, we have had multiple hearings on energy 
initiatives here in America and it is great to see you talk 
about how pollution from Asia impacts us here. I will tell you 
that the very policies that the Environmental Protection Agency 
has put in place has driven that production, coal-fired power 
plants, all those things, out of America, all of this 
manufacturing out of America and then the pollution comes back. 
Actually, in the very first hearing as a Member of Congress I 
asked Ms. Jackson about that and she pooh-poohed the idea that 
this pollution was coming here and that they don't live under 
the same regulatory environment that we do and don't have the 
same rules for their processes, so it is fascinating to hear 
you sort of argue the other side of the coin inside the 
administration. I would suggest maybe a little meet between the 
two of you.
    But I want to get to a couple of things that you said. Does 
the competition for international grants compete with the 
domestic grants?
    Mr. Hooks. Yes.
    Mr. Pompeo. So they are in the same pool?
    Mr. Hooks. Yes, sir.
    Mr. Pompeo. And what part of that is the fact that it is 
not in the United States, that it is how much of a piece of the 
criteria is the fact that it is a non-U.S. applicant versus a 
U.S. applicant? What piece of the criteria is that?
    Mr. Hooks. Can you restate the question again? I am sorry.
    Mr. Pompeo. Yes, so they are in the same pool competing for 
the same grant money, American taxpayer money, and when you are 
deciding whether to send it to Kentucky or Botswana, how much 
of the fact that it is not in America does that impact your 
decision-making process?
    Mr. Hooks. Well, bear in mind the majority of our 
international grant money would go to like the University of 
Kentucky----
    Mr. Pompeo. Um-hum.
    Mr. Hooks [continuing]. Where a Kentucky professor or 
graduate----
    Mr. Pompeo. The majority. Those that don't, let us talk 
about those that don't go to a U.S. institution. Is it a factor 
that it is a non-U.S. entity? Is that weighed in the merit 
process or is it just blind? You don't even know if it going to 
Oregon or Denmark?
    Mr. Hooks. Well, we would know where the grant proposal--
where the monies were ultimately----
    Mr. Pompeo. So do you use it a factor in the decision-
making process?
    Mr. Hooks. Ultimately, the criteria that we are going to 
use is how does it impact the human health and the environment 
here in the United States----
    Mr. Pompeo. Right, so it doesn't matter----
    Mr. Hooks [continuing]. But there are other criteria.
    Mr. Pompeo [continuing]. The country that it is going to. 
If it has got a higher net benefit on an environmental basis, 
then it goes to Denmark as opposed to Oregon. You don't weigh 
the fact that it is a non-U.S. entity directly?
    Mr. Hooks. The first criteria that we are going to use is 
the impact----
    Mr. Pompeo. Right.
    Mr. Hooks [continuing]. And the benefit to the 
environmental quality of the United States.
    Mr. Pompeo. Makes sense. You talked about sort of nation-
building and national security. Do you coordinate with the 
State Department before making these grant awards?
    Mr. Hooks. Yes, we do.
    Mr. Pompeo. And the Department of Defense?
    Mr. Hooks. Not the Department of Defense.
    Mr. Pompeo. So just the State Department?
    Mr. Hooks. Yes, sir.
    Mr. Pompeo. Got it. How many offices within EPA actually 
distribute grants for activities that occur overseas other than 
under this particular program?
    Mr. Hooks. I don't know specifically but certainly our 
Office of Research and Development, obviously the Air Program. 
But I would have to check----
    Mr. Pompeo. Are they coordinated? That is, are you all 
saying, you know, the State Department says, ``We don't really 
want to deal with this nation. I think we won't give them a 
grant.'' Are you guys coordinated or is it completely stove-
piped so you all don't know what is going on in the other parts 
of EPA, let alone other parts of the administration?
    Mr. Hooks. No, it is coordinated. Before we award a grant, 
it would be coordinated with our Office of International and 
Tribal Affairs. Once it meets their criteria, it would be sent 
through the State Department provided it met their criteria. 
Provided that they concurred, we would fund it. If either one 
of those entities were to not concur, if it was inconsistent 
with our foreign policy, then it would not be funded.
    Mr. Pompeo. OK. I will just close here. I have to tell you 
that when I go home, much like you, before I go home and talk 
to folks, when you are $16 trillion in the hole, to justify 
programs like this is an incredibly difficult sell. It is not 
something that I can support. You all talk about it being 
bipartisan; this began in a previous administration. That may 
well be. I am neutral as to who is making this poor decision, 
whether it is a Democrat or Republican administration. It is of 
no importance to me. This program whose time, if it was ever 
here, is certainly gone now.
    And I yield back the balance of my time.
    Mr. Whitfield. At this time, I recognize the gentleman from 
Virginia, Mr. Griffith, for 5 minutes.
    Mr. Griffith. Thank you, Mr. Chairman.
    Thank you so much for being here today, Mr. Hooks. You 
would agree with me that Virginia is more important than 
Kazakhstan, would you not?
    Mr. Hooks. I would agree that----
    Mr. Griffith. At least to our government?
    Mr. Hooks. To our government, yes.
    Mr. Griffith. All right. And you would also agree, would 
you not, that China is not doing enough to clean up their air 
pollution and that you would like to see them moving at a 
faster pace, is that not correct?
    Mr. Hooks. That would be correct.
    Mr. Griffith. So then I question why you would not or why 
the EPA would not support withholding money from any country 
that is not moving fast enough or as fast as the United States 
at cleaning up its air pollution, because I note that in a 
Virginian pilot article of yesterday that the EPA in regard to 
the Chesapeake Bay has held back Virginia's money--1.2 of the 
$2.4 million granted originally to Virginia to help it clean up 
the Bay--and I understand I am talking about water but I was 
glad to hear that you all are coordinated so I want you to take 
this message back--that you are withholding that money because 
you don't think Virginia is moving fast enough on stormwater 
management. And one of the problems that Virginia is having 
with that, of course, is that the cities that are required to 
do more on stormwater management on the waters that fall on 
their streets are Norfolk, Virginia Beach, Chesapeake, 
Portsmouth, Newport News, and Hampton, and while I don't 
represent those areas, I certainly feel their pain.
    And they say that it would be expensive and they are having 
a hard time coming up with the money because they have thrown 
up their hands--I am quoting from the article now--``local 
governments across Virginia have thrown up their hands at the 
prospect of financing stormwater upgrades amid budget crises 
and layoffs'' and yet we are sending money to other countries 
but we are holding back the money to Virginia. And I hope--and 
I am not going to ask you for a response because I know it puts 
you at odds and the water side of it is not your deal, but I 
hope that somebody at the EPA recognizes the conflict there. We 
are going to hold back Virginia's money. We are going to make 
it even harder on localities that are struggling now to deal 
with stormwater management. At the same time, we are sending 
money to places like China, Kazakhstan--and there are a lot of 
different places that we have sent money to--and it just seems 
when we are having issues with money in this country that maybe 
we ought to care more about the Bay than we do necessarily what 
is going on in some small project in China.
    Moving on, I will also note that I agreed with and here-
here'd the chairman's comments in regard to coalmining. We lost 
another 620 miners last week who were laid off in my district 
in on small town alone, and yet I noticed that one of--and it 
is true that some of these were started in the previous 
administration, so I am not trying to pick on the 
administration, but explaining why I think this bill has some 
merit and why we should take a look at it, we are helping the 
Chinese figure out how to--it is technical assessment of 
coalmine gas recovery and utilization in China. Well, the 
Chinese don't seem to be having any problem competing with us 
on all kinds of different levels, and I don't understand why we 
are giving them grants to help them in their industries. Now, 
can you explain that to me?
    Mr. Hooks. Well, one of the purposes of the grant is 
actually for governance and capacity-building. One of the 
things that we are trying to do in these foreign countries as 
they approach us for our advice and expertise is how do they 
raise the environmental standards that we have here in this 
country. If we are successful at what we are doing, if we can 
raise the environmental standards and environmental 
requirements in the governance of other countries, that puts 
our U.S. industry at a more equal footing in terms of our 
ability to compete.
    Mr. Griffith. And I am wondering that was $180,000 and I am 
wondering if you all have given any mining operations in the 
United States $180,000 to help them with technical assessment 
of coalmine gas recovery and utilization? Because what my 
companies tell me generally is is that you all come in and tell 
them they got to do it; they have to spend the money or they 
get fined. So it looks like to me we are taking money out of 
the mines, you know, out of the pockets of the mines in the 
United States while we are giving money to help the Chinese 
mines figure out their problems.
    Mr. Hooks. Well, bear in mind, we have actually worked----
    Mr. Griffith. Let me ask this question because my time is 
running out.
    Mr. Hooks. OK.
    Mr. Griffith. Have you given any $180,000 grants to the 
United States mines to help them with this same type of thing?
    Mr. Hooks. We work extensively with the U.S. Mining 
Commission on voluntary programs such as coalmine methane 
reduction. We understand it can be used as an energy source and 
it is also----
    Mr. Griffith. I use Mr. Dingell's----
    Mr. Hooks [continuing]. Very explosive----
    Mr. Griffith. Yes or no, have you given any grants of a 
similar size, $180,000 or more to U.S. mining concerns in 
regard to helping them mine coal?
    Mr. Hooks. I do not know. I am not saying that we haven't. 
I am just not aware of any personally.
    Mr. Griffith. All right. You don't have a list of those. 
Can you get me a list of all of those?
    Mr. Hooks. Of where we worked with the U.S. mining 
industry?
    Mr. Griffith. Where you have given grant money to help U.S. 
coalmines figure out better ways to give them money to help 
them put the equipment in or whatever is necessary like you did 
the Chinese? And I am looking at page 17 of your report--
``technical assessment of coalmine gas recovery and 
utilization.''
    Mr. Hooks. I will see what we have in our files.
    Mr. Griffith. And like some of the others have said, I am 
glad that you recognize it is an international problem. One of 
our concerns has been that we think we are sending jobs with so 
many different regulations coming from so many different parts 
of the EPA and other agencies at one time and we are actually 
sending a lot of jobs overseas. And as you recognize, we are 
reaping back pollution and we think we need a better-paced set 
of regulations and more reasonable regulations.
    Thank you, Mr. Chairman. I yield back.
    Mr. Whitfield. The gentleman's time is expired.
    Mr. Hooks, I want to thank you very much for being with us 
this morning. In concluding, we would appreciate if you would 
get back to the committee with a list of grants that have been 
made to U.S. coalmining companies.
    Mr. Hooks. Bear in mind, some of our grants go to 
universities or other institutions and they in turn work with 
other entities.
    Mr. Whitfield. Yes, but we would like a list of any direct 
grants you have given to coalmining companies.
    Mr. Hooks. Yes, we wouldn't have the authority to actually 
give a grant to a mining company.
    Mr. Whitfield. All right. OK. Then I would like for you to 
do this. I am going to give you a grant number, grant number 
83299401 and 83505801. Those were two grants that the EPA 
through 103 grants gave to the China Coal Information 
Institute. And I would like for you to provide the committee a 
synopsis of the information or benefit to the taxpayers from 
those two grants. Thank you.
    Mr. Hooks. Yes, sir. Thank you.
    Mr. Whitfield. That concludes the questions.
    Mr. Hooks, thank you again for being with us. And at this 
time----
    Mr. Hooks. Thank you, Mr. Chairman.
    Mr. Whitfield. Did you have a question? No. OK.
    At this time, I would like to call up those on panel two, 
our witnesses on the second panel. And we have with us Mr. 
Daniel Simmons, who is the Director of Regulatory and State 
Affairs for the Institute for Energy Research. We have Dr. 
Andrew Light, Senior Fellow, Center for American Progress 
Action Fund; Associate Director, Institute for Philosophy and 
Public Policy at George Mason University. We have Ms. Elisa 
Derby, Senior Program Officer, Winrock International; Co-
coordinator for the Partnership for Clean Indoor Air. And we 
have Dr. David Kreutzer, Research Fellow in Energy Economics 
and Climate Change at the Heritage Foundation.
    So I would like to welcome all four of you to the 
committee. We appreciate very much your taking time to join us 
to discuss H.R. 4255 and your views on the legislation.
    And Mr. Simmons, we would like to start with you and you 
will be recognized for 5 minutes for your opening statement.

STATEMENTS OF DANIEL SIMMONS, DIRECTOR OF REGULATORY AND STATE 
 AFFAIRS, INSTITUTE FOR ENERGY RESEARCH; ANDREW LIGHT, SENIOR 
 FELLOW, CENTER FOR AMERICAN PROGRESS, AND ASSOCIATE DIRECTOR, 
   INSTITUTE FOR PHILOSOPHY AND PUBLIC POLICY, GEORGE MASON 
   UNIVERSITY; ELISA DERBY, SENIOR PROGRAM OFFICER, WINROCK 
INTERNATIONAL; AND DAVID W. KREUTZER, RESEARCH FELLOW IN ENERGY 
     ECONOMICS AND CLIMATE CHANGE, THE HERITAGE FOUNDATION

                  STATEMENT OF DANIEL SIMMONS

    Mr. Simmons. My name is Daniel Simmons. I am the director 
of Regulatory Affairs at the Institute for Energy Research.
    It is difficult for me to see the value of EPA providing 
taxpayer funding grants to organizations and governments 
outside the United States for things such as ``good governance 
capacity-building'' in Jordan or ``regulatory dialogue'' on 
landfill gas in Brazil. Part of the reason the United States is 
now over $16 trillion in debt is because the Federal Government 
has little spending discipline. Compared to $16 trillion, these 
grants are small, but the grants are symptomatic of out-of-
control spending by the Federal Government. When individuals 
have money and debt problems, the commonsense solution is to 
cut back on unnecessary spending. It is only fair to ask the 
Federal Government to do the same. Taxpayer dollars should be 
spent on projects that have an obvious benefit to the American 
people and these foreign grants do little, if anything, to 
benefit Americans.
    If EPA would like to improve environmental quality at home 
and abroad, a far more productive approach would be to promote 
environmental improvements through economic growth. Years of 
research shows that economic growth promotes environmental 
protection. As noted previously, Section 103 does not provide 
explicit authority for EPA to award these grants to foreign 
entities, only to ``establish a national research and 
development program. But Section 103 also does not provide an 
explicit limitation, and therefore, EPA for years has been 
awarding these sorts of grants.
    When faced with these questions, I would hope that EPA 
would look to the Federal regulatory philosophy that is laid 
out in Executive Order 12866, which was originally signed by 
the Clinton administration and reaffirmed by the Bush 
administration and again reaffirmed by the Obama 
administration. And in pertinent part, the Executive Order says 
that Federal agencies should promulgate only such regulations 
as are required by law, are necessary to interpret the law, or 
are made necessary by compelling public need. And it is 
difficult to see for these grants that they are required by law 
or necessary or what the compelling public need is, at least 
for American citizens. And these grants, there is a large 
number of them that are definitely of dubious value for 
Americans.
    For example, on March 22 of this year, EPA awarded a grant 
with the following description: ``the goal of this project is 
to increase environmental public participation through a pilot 
project in Dominican Republic. ALIANZA will work with 
stakeholders and appropriate governmental authorities to ensure 
the pilot project expected results are successfully 
accomplished.'' Now, I have no idea what in the world it means 
to ``increase environmental public participation'' and what 
value that is for the American people. Pollution may cross 
boundaries but this isn't about that. This is about 
``increasing environmental public participation.''
    And if EPA wants to promote environmental protection, 
economic growth is a far better alternative, but as we have 
seen from EPA, a number of the regulations that they have been 
promoting lately does not promote economic growth. One example 
is the Mercury and Air Toxics Standards Rule. The point of this 
rule, allegedly, is to reduce mercury. However, the rule cost 
$10 billion a year according to EPA and results in a maximum--
according to EPA--of $6 billion in benefits from the reduction 
of mercury. In other words, this is a net cost to the American 
economy, and honestly the economy of the world, of $10 billion 
a year. You can buy a lot of anaerobic digesters in China or 
Brazil or where-have-you with $10 billion. And the Mercury and 
Air Toxics Standards is just one example, but it is 
representative of EPA's current regulatory philosophy.
    Far more benefits could be achieved both environmental and 
economic if EPA were more circumspect in its regulation. The 
American people want Congress to balance the budget and get 
America's fiscal house in order. One key to doing this is to 
reduce spending on things that are obviously unnecessary. It is 
not obvious what the value is to the American people of 
international grants issued under the Clean Air Act, Section 
103.
    I thank you for your time and I will be happy to answer any 
questions.
    [The prepared statement of Mr. Simmons follows:]
    [GRAPHIC] [TIFF OMITTED] 82931.070
    
    [GRAPHIC] [TIFF OMITTED] 82931.071
    
    [GRAPHIC] [TIFF OMITTED] 82931.072
    
    [GRAPHIC] [TIFF OMITTED] 82931.073
    
    [GRAPHIC] [TIFF OMITTED] 82931.074
    
    [GRAPHIC] [TIFF OMITTED] 82931.075
    
    [GRAPHIC] [TIFF OMITTED] 82931.076
    
    [GRAPHIC] [TIFF OMITTED] 82931.077
    
    [GRAPHIC] [TIFF OMITTED] 82931.078
    
    Mr. Whitfield. Thank you very much, Mr. Simmons.
    And Dr. Light, you are recognized for 5 minutes.

                   STATEMENT OF ANDREW LIGHT

    Mr. Light. Thank you, sir.
    Chairman Whitfield, Representative Rush, honored Members, I 
appreciate the invitation to testify on H.R. 4255. In these 
brief remarks, I will focus on that part of my written 
testimony which offers evidence for House Section 103 grants to 
foreign partners help to protect the health of Americans, 
fulfill our foreign policy objectives, ensure American 
competitiveness, and deliver on our ability to solve global 
environmental problems. I will give examples for each point. My 
written testimony has many others.
    Point one: these grants help to protect the health and 
safety of Americans. Mr. Simmons called into question the 
utility of these grants for Americans. In fact, funding for 
studies and projects abroad directly help to protect us. For 
example, interdisciplinary team led by Susan Annenberg at the 
University of North Carolina demonstrated in 2009 that 
reductions in air pollution in other countries will result in 
significantly reduced mortality rates here in the United 
States. Looking at the impacts of ozone pollution alone in 
their study--a target of many of these grants--they estimate 
foreign emission reductions contribute about 30 percent of the 
total avoided mortalities in North American with almost \3/4\ 
of those in the United States. Increasing these measures abroad 
will save more American lives.
    Point two: these grants help the United States to meet 
critical foreign policy objectives. In a moment, Ms. Derby will 
describe the importance of Winrock's work with the Partnership 
for Clean Indoor Air and the Global Alliance for Clean 
Cookstoves, including the lifesaving benefits these projects 
have provided for millions of people. But the Clean Cookstoves 
initiative does more than prevent indoor air pollution; it 
reduces the vulnerability of women in African conflict zones by 
decreasing their time gathering fuel, which in turn increases 
their social mobility. This may not seem like much but it is 
quite a lot for them given their daily lives. More is provided 
here than a new appliance. These cookstoves assist in creating 
a fundamental element of democracy, namely, a safe, free 
environment where they can have a chance at success, which in 
turns strengthens our relationship with these countries.
    Point three: these grants help to ensure competiveness for 
American companies, as many have already argued. Support for 
multilateral organizations that raise ambition for tighter 
pollution-protection measures abroad, including cooperation 
with organizations like UNEP, the OECD, and others help to 
ensure the developing countries are applying similar pollution 
standards that we do at home. Programs like the Partnership for 
Clean Fuels in Vehicles, as we heard in the first panel, help 
U.S. companies abroad because equal regulation on air pollution 
creates a level playing field for American companies to be 
competitive when manufacturers in other countries are being 
held to the same standards.
    Point four: these grants are critical for applying global 
solutions to global challenges. And I will spend a bit more 
time on this one. The Global Methane Initiative mentioned 
earlier by Assistant Administrator Hooks certainly helps to 
reduce the impact of this powerful greenhouse gas, as he said. 
But the impacts go much further and help to explain why all 
countries have an interest in cooperatively taking on these 
challenges and are doing so now. Methane, along with black 
carbon, hydrofluorocarbons, and tropospheric ozone are what we 
call short-lived climate pollutants. Not only do these gases 
have more warming potential than carbon dioxide, some of them 
are potentially deadly. Each year, millions of people die 
prematurely from black carbon or soot. These gases are also 
responsible for extensive crop losses each year.
    Regardless of one's views on the reality of climate 
change--we don't have to agree on that--addressing these non-
CO2 pollutants is both cost-effective and yields multiple 
health and economic benefits. For example, this year, a study 
published in ``Science'' by an international team led by NASA's 
Drew Shindell estimated the effects of 14 very straightforward 
methane and black carbon control measures. Implementation of 
these measures would avoid up to 4.7 million annual premature 
deaths worldwide and increase crop yields annually by 30 to 135 
million metric tons starting in 2030 and beyond, including 6.3 
proven million tons of crops in the United States.
    The costs for these programs are minimal. Reducing a metric 
ton of methane costs around $250 while the benefit ranges from 
700 to $5,000. Already U.S. investments in the Global Methane 
Initiative have leveraged 398 million in additional investment, 
or almost three times as much as all 103 grants to foreign 
recipients since the year 2000. Developing countries simply 
cannot leverage private finance in the way U.S. dollars can, 
and that is why we need cooperation on these efforts moving 
forward.
    Now, for those who are concerned with global warming, this 
suite of measures reduces total projected warming by half a 
degree Celsius. Given that the current internationally accepted 
goal is to try to stabilize temperature increase caused by 
humans at 2 degrees Celsius over preindustrial levels and given 
that humans have already pushed the temperature up almost 1 
degree, we can't afford not to do this.
    The measure studied in the Shindell paper include reducing 
methane leakage from coalmining, oil and gas production, 
landfills, wastewater, livestock manure, and rice paddies. The 
black carbon measures cover diesel vehicles, clean-burning 
biomass, and things like cookstoves, in other words, exactly 
the same kinds of programs that the Section 103 grants are 
funding right now.
    Provision of these funds is not proof that developing 
countries will not work towards reducing emissions on their 
own, as some have argued. Instead, it shows that an ambitious 
approach focused on sharing knowledge on multiple fronts helps 
to build momentum toward a common end that will benefit 
everyone. Developing countries are already working to reduce 
these pollutants for the same reason we are--to save lives, 
grow more food, and give their children a chance at a better 
future.
    To briefly conclude, given the abundant benefits 
demonstrated here of cooperation with foreign partners in 
projects outside of the United States and given the absolute 
necessity for international cooperation to adequately address 
problems that cannot effectively be stopped at anyone's 
borders, it would be irresponsible to limit EPA as this bill 
proposes.
    Of course I agree that we need to reduce budgets across the 
board in the Federal Government. No one could argue otherwise. 
But if we must trim 103 grant programs, better to use a scalpel 
than a sledgehammer.
    [The prepared statement of Mr. Light follows:]
    [GRAPHIC] [TIFF OMITTED] 82931.079
    
    [GRAPHIC] [TIFF OMITTED] 82931.080
    
    [GRAPHIC] [TIFF OMITTED] 82931.081
    
    [GRAPHIC] [TIFF OMITTED] 82931.082
    
    [GRAPHIC] [TIFF OMITTED] 82931.083
    
    [GRAPHIC] [TIFF OMITTED] 82931.084
    
    [GRAPHIC] [TIFF OMITTED] 82931.085
    
    [GRAPHIC] [TIFF OMITTED] 82931.086
    
    [GRAPHIC] [TIFF OMITTED] 82931.087
    
    [GRAPHIC] [TIFF OMITTED] 82931.088
    
    [GRAPHIC] [TIFF OMITTED] 82931.089
    
    [GRAPHIC] [TIFF OMITTED] 82931.090
    
    [GRAPHIC] [TIFF OMITTED] 82931.091
    
    [GRAPHIC] [TIFF OMITTED] 82931.092
    
    [GRAPHIC] [TIFF OMITTED] 82931.093
    
    [GRAPHIC] [TIFF OMITTED] 82931.094
    
    [GRAPHIC] [TIFF OMITTED] 82931.095
    
    [GRAPHIC] [TIFF OMITTED] 82931.096
    
    [GRAPHIC] [TIFF OMITTED] 82931.097
    
    [GRAPHIC] [TIFF OMITTED] 82931.098
    
    Mr. Whitfield. Ms. Derby, you are recognized for 5 minutes.

                    STATEMENT OF ELISA DERBY

    Ms. Derby. Chairman Whitfield, Representative Rush, 
distinguished members of the committee, thank you for inviting 
me here today. My name is Elisa Derby. I am a senior program 
officer at Winrock International and I manage Winrock's 
household energy programs.
    Winrock International is a nonprofit organization that 
works with people in the United States and around the world to 
empower the disadvantaged, increase economic opportunity, and 
sustain natural resources. Winrock is headquartered in Little 
Rock, Arkansas, the State of our namesake, former governor 
Winthrop Rockefeller. I am pleased to be here today to discuss 
Winrock's partnership with the U.S. Environmental Protection 
Agency related to clean, efficient cooking practices. Winrock 
is one of the grantees being discussed today.
    I will summarize my testimony for you today to maximize 
time for your questions. My complete testimony has been 
submitted for the record. I hope this testimony helps committee 
members understand the work we have done and the people it has 
benefitted.
    Some 3 billion people worldwide burn solid fuels like wood, 
animal dung, crop residues, coal, and charcoal for cooking and 
heating in open fires or rudimentary stoves, releasing toxic 
smoke into their homes. Nearly 3 million people, primarily 
women and children in poor countries, die prematurely each year 
from exposure to indoor smoke from burning solid fuels, more 
than from either AIDS or malaria. Pneumonia, also closely 
associated with exposure to indoor smoke, is the number one 
killer of children worldwide and kills more children than AIDS, 
malaria, and tuberculosis combined. Exposure to indoor smoke it 
also associated with various cancers, cataracts, tuberculosis, 
asthma attacks, babies born with low birth weight or stillborn, 
and early infant death.
    Time and money spent on gathering and buying fuel 
perpetuates the cycle of family poverty. While I am not an 
expert on this issue, we do know that there are direct links 
between international poverty and U.S. national security. The 
inefficient burning of wood and charcoal also increases 
pressures on local natural resources and contributes to 
emissions of greenhouse gases and black carbon. In short, the 
simple task of cooking family meals has serious negative health 
and socioeconomic implications for half the world's population 
and serious negative environmental impacts locally and 
globally.
    Fortunately, there are clear solutions to these problems. 
Winrock, EPA, and a host of national, international, and 
private sector partners have worked to promote low-cost but 
clean and efficient approved cookstoves to address these 
problems since 2002 under the Partnership for Clean Indoor 
Air--which we will refer to as PCIA--launched as a presidential 
initiative of George W. Bush and led by EPA, and now, through 
ongoing work of the Global Alliance for Clean Cookstoves, EPA, 
and other U.S. government agencies.
    I personally have witnessed the damaging health and safety 
effects of indoor air pollution in homes I have visited in 
Latin America and Asia and the impact that a clean, efficient 
cookstoves can have on their lives. Women have shared with me 
that with an improved cookstove, they cough less and their 
children stay healthier. They say they have more time to spend 
with their children and more money for food and school as a 
result of their reduced fuel needs of the improved stoves. They 
are horrified to realize that the soot coating their walls and 
ceiling from their old stove was also coating their children's 
lungs.
    As a recognized global leader and expert in indoor air 
quality, EPA's involvement in this work has lent important 
prestige to the improved cookstoves sector that has enabled 
tremendous accomplishments and growth and development of the 
sector over the past 8 years that would not have been possible 
otherwise. Over the 6 years that we monitored PCIA partner 
achievements, PCIA partners reported selling and distributing 
more than 9.3 million improved stoves benefitting approximately 
52 million people around the world.
    Winrock takes seriously our important role as stewards of 
U.S. taxpayer dollars. As such, we are firmly committed to 
cost-effective and efficient use of funds and always require 
significant participant cost-share for all travel scholarships 
used to bring participants to our high-impact and low-cost 
technical trainings. Participants that receive airfare support 
are responsible for all other travel costs, including meals and 
lodging. The overwhelming majority of the grant funding that 
Winrock has received from EPA for this partnership was spent 
here in the United States. At no time have any funds been 
transferred to any foreign government or other foreign entity.
    We believe that the work EPA has funded to date related to 
clean and efficient cookstoves has been pioneering and vital to 
the sector, and we have been proud to play a role in these 
achievements. Ultimately, this effort will lead to more people 
using better technologies and practices, reducing their 
exposure to indoor smoke, and thereby improving their health, 
livelihood, and quality of life.
    I appreciate the opportunity to make this presentation and 
I am happy to answer any questions you may have.
    [The prepared statement of Ms. Derby follows:]
    [GRAPHIC] [TIFF OMITTED] 82931.099
    
    [GRAPHIC] [TIFF OMITTED] 82931.100
    
    [GRAPHIC] [TIFF OMITTED] 82931.101
    
    [GRAPHIC] [TIFF OMITTED] 82931.102
    
    [GRAPHIC] [TIFF OMITTED] 82931.103
    
    [GRAPHIC] [TIFF OMITTED] 82931.104
    
    [GRAPHIC] [TIFF OMITTED] 82931.105
    
    [GRAPHIC] [TIFF OMITTED] 82931.106
    
    [GRAPHIC] [TIFF OMITTED] 82931.107
    
    [GRAPHIC] [TIFF OMITTED] 82931.108
    
    [GRAPHIC] [TIFF OMITTED] 82931.109
    
    [GRAPHIC] [TIFF OMITTED] 82931.110
    
    [GRAPHIC] [TIFF OMITTED] 82931.111
    
    [GRAPHIC] [TIFF OMITTED] 82931.112
    
    [GRAPHIC] [TIFF OMITTED] 82931.113
    
    [GRAPHIC] [TIFF OMITTED] 82931.114
    
    Mr. Whitfield. Thank you, Ms. Derby.
    Mr.----
    Mr. Kreutzer. Kreutzer.
    Mr. Whitfield. Kreutzer. Dr. Kreutzer, you are recognized 
for 5 minutes.

                 STATEMENT OF DAVID W. KREUTZER

    Mr. Kreutzer. My name is David Kreutzer. I am research 
fellow in energy economics and climate change at the Heritage 
Foundation. The views I express in this testimony are my own 
and should not be construed as representing any official 
position of the Heritage Foundation.
    Chairman Whitfield and Ranking Member Rush and other 
members of the committee, I want to thank you for inviting me 
to address you on the issue of EPA grants to foreign 
recipients.
    Though there may well be legitimate concerns about the 
appropriateness of funding environmental activities abroad, 
especially given our national debt and the fraction of our debt 
that is held by one of the leading recipient countries, a 
greater concern is what this tells us about our government's 
vision for much more significant obligations. That the EPA 
funds environmental programs in foreign countries is a clear 
sign that these countries are unwilling to fund these programs 
themselves. Though there are serious disagreements about the 
impact of CO2 emissions, climate skeptics, climate activists, 
the EPA, and others all agree the growth of CO2 emissions over 
the next century will come predominantly if not entirely from 
the developing countries.
    For example, in 2002, China's CO2 emissions were 40 percent 
less than those in the United States while this year they are 
at least 50 percent greater. And this trend is likely to 
continue with CO2 emissions coming from the developing world 
are growing much faster than they will from the developed 
world.
    Even accepting the Intergovernmental Panel on Climate 
Change's high-end estimate of climate sensitivity--and that is 
a measure of how much warming there will be for a doubling of 
carbon dioxide levels in the atmosphere--even accepting those 
numbers, it is acknowledged that cutting CO2 emissions in the 
U.S. alone or even in conjunction with the Annex I countries--
that is the developed countries of the Kyoto Agreement--will 
moderate any global warming by less than a half a degree by the 
end of this century. Whenever this point was made in the 
debates over cap-and-trade bills, for instance, the proponents 
of the legislation would imply that the emerging economies 
would follow our lead. What these proponents usually left out 
was that we would have to pay them to follow our lead.
    And why should they want to voluntarily? Last summer, there 
was a headline that said half of India was without electricity 
that was due to a blackout. The week before, they could have 
had a headline that said \1/3\ of India is without electricity 
because they are always without electricity. All right? And so 
they are looking at having phenomenal growth rates. They would 
like everybody to have electricity. They would like them to 
have more than just electricity; they would like them to have 
refrigerators and dishwashers and all the things that we have. 
It is going to take a phenomenal amount of money to bribe them 
to forego those things, that growth that they would get by 
using energy.
    The UN Framework Convention on Climate Change established a 
$100 billion Green Climate Fund as sort of the first ante to 
help transfer this wealth from the developed world to the 
developing world to get them to comply with the carbon 
restrictions. What the UN Framework Convention on Climate 
Change left out was the actual funding part of this fund, but I 
think we can get an idea by simply looking at past legislation 
in the U.S. The Lieberman-Warner cap-and-trade bill had 
provisions for designating U.S. money to go to foreign 
programs, as did the Waxman-Markey cap-and-trade bill, as did 
the Kerry-Boxer cap-and-trade bill, as did the Kerry-Lieberman 
cap-and-trade bill.
    EPA funding of foreign environmental programs is a clear 
sign that foreign countries are unwilling to fund these 
programs themselves. It should be noted that the cost of these 
programs is a small fraction of the cost of those necessary for 
these countries to meet carbon emission targets set out by 
proponents of global warming policies. So this is yet another 
sign that any carbon legislation in the U.S., whether it is a 
carbon tax or a cap-and-trade, is likely to obligate U.S. 
energy consumers to bear not only the burden of our own 
policies but the additional burden of paying foreign countries 
for their compliance. There is new universal agreement that 
without severe restrictions on the carbon emissions of the 
developing countries, no policy in the developed world will 
have sufficient impact for them to meet the targets that are 
being set out, ones that I oppose, by the way.
    Though unadvertised, this significant additional burden of 
paying for the developing world's compliance is known to those 
involved in climate negotiations and policymaking. The UN has 
established a fund that will require developed countries to 
contribute hundreds of billions of dollars. U.S. energy 
consumers may not know about this obligation, but those 
negotiating supposedly on their behalf do, that every major 
cap-and-trade bill in the U.S. included mechanisms for 
contributing to this fund or ones like it makes it clear that 
climate policymakers in the U.S. intend to acquiesce to these 
demands for our wealth.
    Taken in this context, the EPA grants may just be the 
camel's nose in the tent. Thank you.
    [The prepared statement of Mr. Kreutzer follows:]
    [GRAPHIC] [TIFF OMITTED] 82931.115
    
    [GRAPHIC] [TIFF OMITTED] 82931.116
    
    [GRAPHIC] [TIFF OMITTED] 82931.117
    
    [GRAPHIC] [TIFF OMITTED] 82931.118
    
    [GRAPHIC] [TIFF OMITTED] 82931.119
    
    [GRAPHIC] [TIFF OMITTED] 82931.120
    
    [GRAPHIC] [TIFF OMITTED] 82931.121
    
    Mr. Whitfield. Thank you very much, Dr. Kreutzer.
    And thank all of you for your testimony. I will recognize 
myself for 5 minutes and then the other Members will ask 
questions as well.
    Mr. Simmons, in your testimony you talked about the 
Executive Order that President Clinton and President Obama had 
in which it basically was saying that agencies should not issue 
grants other than as explicitly set out in the legislation of 
the statute. Can you make an argument based on that Executive 
Order that EPA may be violating that Executive Order with their 
103 grants?
    Mr. Simmons. Well, I need to be clear on this. The 
Executive Order is the regulatory philosophy, and there is 
obviously a difference between regulations and between grant-
making. And my argument is that grant-making and how they 
decide grant-making ought to be analogous to how they should be 
following the regulatory philosophy. So I mean I think it 
definitely violates the spirit of the Executive Order, but 
unfortunately, there has been a longstanding----
    Mr. Whitfield. Well, there has been a long standing and I 
agree with you that I think it does violate the spirit of it. 
And I don't really agree with EPA that it is very clear in the 
Section 103 statute that they have the authority to do these 
international grants. But I think primarily they are relying on 
their NEPA authority and I don't know that that has ever been 
tested in the courts. Do you know if it has?
    Mr. Simmons. My understanding--well, yes, I don't know. I 
mean Section 103 says that EPA has the authority to ``establish 
a national research and development program for the prevention 
and control of air pollution.'' It says it is a national 
program. It doesn't----
    Mr. Whitfield. Right.
    Mr. Simmons. By not explicitly limiting EPA's----
    Mr. Whitfield. Right.
    Mr. Simmons [continuing]. Authority----
    Mr. Whitfield. Yes. Yes.
    Mr. Simmons [continuing]. Is why we are in the situation--
--
    Mr. Whitfield. And Ms. Derby, all of us have heard of 
Winrock International and we know that you all do great work 
and that you are here testifying you are not trying to hide 
anything. And on your Web site it talks about and you have said 
in your testimony you received grants from the Federal 
Government, and you list agencies that you have received grants 
from. How much would you say that you receive a year in grants 
from the Federal Government for Winrock?
    Ms. Derby. I don't have that number but I would estimate 
that at least $60 million a year.
    Mr. Whitfield. Sixteen million, OK.
    Ms. Derby. Sixty. Sixty.
    Mr. Whitfield. Oh, 60 million.
    Ms. Derby. Yes, it fluctuates----
    Mr. Whitfield. Yes.
    Ms. Derby [continuing]. From year----
    Mr. Whitfield. Because I know you have foundations that 
support you and----
    Ms. Derby. Um-hum.
    Mr. Whitfield [continuing]. Even Federal agencies outside 
the U.S. and so forth. But I am glad that you and Dr. Light are 
here because, as I said in my opening statement, this is more 
symbolic than anything else. We have a gigantic Federal debt 
and everyone that comes up here to testify, they always say I 
agree that we need to be more focused on reducing our debt, but 
anytime we ever come up with even a minor way to do it, 
everyone says, oh, my God, we can't do that. And now, here we 
are talking about EPA. They have a budget over $8 billion a 
year and we are talking about less than 1 percent of that on 
these 103 grants. And I mean I find it difficult to believe in 
all the hearings that I have been a part of listening to EPA 
testify up here, all of their programs, that they would be 
damaged in any significant way or that the American people 
would be damaged in any significant way by eliminating these 
grants. Obviously, you don't feel that way, Dr. Light, and I 
guess you don't feel that way either. Is that right, Ms. Derby?
    Ms. Derby. Yes. Can I respond?
    Mr. Whitfield. Sure.
    Ms. Derby. Yes, so all of Winrock's household energy 
technical training work has been funded by EPA, and so if this 
legislation should pass, then that possibility going forward 
would be eliminated but not just for Winrock, for all of the 
improved cookstoves sector. And because EPA is a leading, 
recognized expert in indoor air quality, their involvement has 
been very important to the sector.
    Mr. Whitfield. Let me just interject here. Mr. McKinley 
talked about this and he talks about it every hearing, every 
time EPA comes up here we talk about indoor air quality being 
worse than outdoor air and they seldom, if ever, focus any 
attention on indoor air, and yet, through these grants, they 
are concerned about indoor air problems outside the U.S.
    Ms. Derby. Well, I can't represent EPA but I know EPA does 
work on indoor air quality in the United States.
    Mr. Whitfield. Not much. Not much.
    Ms. Derby. I would have to defer to EPA on----
    Mr. Whitfield. Does anybody else have any comment? My time 
is expiring. Yes?
    Mr. Light. Mr. Chairman, I think there is certainly a place 
for, you know, putting forth some piece of legislation to make 
the symbolic argument you are making. I think the consensus 
view that Ms. Derby and I have and many of the people who work 
in this area and my review of the scientific literature is 
that, unfortunately, the impact would not be symbolic, that it 
effectively would have a very big impact on our ability to 
fight----
    Mr. Whitfield. Yes.
    Mr. Light [continuing]. Pollution that is harming 
Americans. And it might sound like a very small amount of money 
from the EPA budget, but as you say, the EPA budget is very 
large. And so compared to what a lot of other countries come 
into efforts like this, even a small amount of our budget 
actually goes quite a long way, especially with respect to 
leveraging private finance, even increase the pots of----
    Mr. Whitfield. Yes.
    Mr. Light [continuing]. Money available for reducing these 
pollutants.
    Mr. Whitfield. Thank you. Dr. Kreutzer?
    Mr. Kreutzer. Yes. Again, I would like to take a somewhat 
bigger picture view. I don't have any problem, I don't think, 
with our cookstove at our house because it is electric. And it 
is electric because we have economic growth and we have power 
plants I think in Virginia--probably the majority is from coal. 
And while it is noble and I think a good idea to improve the 
cookstoves that are using gathered wood or dung or whatever the 
source may be, it is ironic that at the same time that the EPA 
is funding this project, they are working so hard to prevent 
the electrification or the use of coal that can provide a much 
cleaner indoor environment by allowing people--\1/3\ as I 
mentioned in India don't even have electricity; one of the 
cheapest sources of electricity for them will be coal--but we 
have almost a jihad against coal here in the U.S. spearheaded 
by the EPA. So I think it would be more consistent if they were 
really worried about indoor air pollution to come up with ways 
to help the developing world to get electricity that is 
affordable and reliable.
    Mr. Whitfield. Yes, very good.
    Mr. Rush, you are recognized for 5 minutes.
    Mr. Rush. I agree with Dr. Light that this is more than 
just symbolism. To spend this much time on a bill using these 
resources, I hope that it is not just about symbolism. But Dr. 
Kreutzer, you raise some interesting points. You know, you kind 
of rattled me a little bit. He accused us of trying to bribe 
foreign governments with these funds. How do you react to that? 
How do you react to his whole statement?
    Mr. Light. Yes, sir. I would not agree with Mr. Kreutzer 
that these are bribes that we are giving to other governments. 
I don't think that that is way the fundamental leveraging of 
finance works out in these cases. Sort of the trajectory of his 
argument was that this was the camel's nose under the tent and 
what is down the road is by 2020 this Green Climate Fund, which 
is supposed to raise the bulk of the commitments for $100 
billion, but the way that Mr. Kreutzer characterized this in 
his testimony, there were just many errors. He says, for 
example, that the U.S. is expected to make the biggest 
contribution to international climate finance. Well, while some 
people might expect that, that certainly isn't how this 
administration has characterized what they plan on contributing 
to funds like these.
    He also suggested towards the end of his testimony that 
setting up these big funds like this will require developed 
countries to contribute hundreds of billions of dollars, and 
that is just simply not the way they are set up. In fact, if 
you look at the Green Climate Fund and many of the other 
climate funds around the world, including the current ones that 
exist in World Bank and others, the United States has always 
said public money cannot be used to fill all these coffers. 
That is the consistent position of this administration. And the 
United States, in fact, held up the implementing document for 
the Green Climate Fund before last year's Climate Summit in 
Durbin because it did not sufficiently allow for private 
investment to be one of the key factors of how this one was 
going to move forward. In fact, the United States held up the 
document and said we will not agree to signing onto this 
document moving forward until there is a significant portal for 
private investment going forward.
    This is how the United States looks at this, and so I think 
to characterize this as just a big public giveaway globally is 
just simply false. It is the case that because we are talking 
about countries that have excruciating development needs that 
they are going to need some assistance to leverage adequate 
amounts of money to deal with these problems, and the good part 
is is that we all absolutely benefit from this. And I think the 
numbers are absolutely clear.
    Mr. Kreutzer. Can I chime in since you are talking about my 
testimony?
    Mr. Rush. Mr. Chairman, I have the time.
    Ms. Derby, I am very, very excited about your program and 
what you do and what Winrock does across the world, and when 
you talked about the cookstoves, I recall a time when I was in 
Chiapas, Mexico, and we walked into this little hut and the 
smoke, we could not really understand how they could stay in 
this one-room hut with this cookstove, and it was just so much 
smoke. The smoke was so thick and here you had babies and 
little children, you know, in and out of that place. So I mean 
that picture is driven in my mind. So can you tell me a little 
bit about or can you describe the breadth of support for your 
work? How many other international organizations support this 
kind of work? The chairman indicated that you had foundations 
supporting this kind of work. How much of an international 
initiative does the matter of cookstoves engender around the 
world, how much support around the world?
    Ms. Derby. Well, there are numerous improved cookstove-
related programs around the world. Many are funded by U.S. 
government agencies. When the Global Alliance for Clean 
Cookstoves was launched, there was a $53 million commitment by 
the U.S. Government. About half of that was committed by CDC 
and NIH for health studies and the rest was committed between 
the Department of Energy, Department of State, USAID and EPA. 
The World Bank also works on improved cookstove-related and 
household energy work, as do smaller foundations fund this kind 
of work. At Winrock, our primary work with improved cookstoves 
and household energy in general has been through USAID and EPA 
funding.
    Mr. Rush. So if in fact this bill were to become law, then 
it would have a cascading effect or reverberation on these 
other programs and these other initiatives around the world. Is 
that correct?
    Ms. Derby. I believe so because EPA has been a pioneering 
leader in the sector and has been able to leverage the 
involvement of other U.S. Government and international 
agencies. And so to have EPA suddenly pull out from the sector 
would be a tremendous blow to the sector.
    Mr. Rush. What would it do to our foreign image, I mean our 
image around the world as it relates to being a leader in terms 
of environmental----
    Ms. Derby. Well, the U.S. is definitely, thanks to EPA, 
currently recognized as a leader in household energy and indoor 
pollution and cookstoves work. Right now, the EPA is funding 
technical trainings around the world to help people learn to 
make better cookstoves and make sure that they work right. You 
can't tell by looking at a cookstove if it works right; you 
have to test it. So all of this training that we are doing 
increases U.S. visibility and goodwill abroad by us helping 
these producers to make their stoves better and thereby improve 
health and livelihood for families.
    Mr. Whitfield. Gentleman's time is expired.
    At this time, I would like to recognize the gentleman from 
Virginia, Mr. Griffith.
    Mr. Griffith. Thank you, Mr. Chairman.
    Dr. Kreutzer, nice to see you and welcome you here. You, a 
couple times, wanted to make some comments in the last couple 
of minutes and I am going to give you that opportunity.
    Mr. Kreutzer. Well, thank you.
    First, and I will talk about the most recent topic which is 
these cookstoves and I think it is a noble initiative. The 
trouble is the EPA seems to want to create a world that is 
ideal for subsistence farmers. As we want to help them with the 
technologies that they had when they were poor, we do not want 
to help promote technologies and energy sources that are going 
to allow them to become rich. And I think that is misguided. As 
a great a problem as I think the one you have now is, ignoring 
the second half is even worse, in greater magnitude.
    Dr. Light accused me of making some misrepresentations 
regarding these global funds. He said the administration does 
not want public funds to go to them. The administration 
supported the Waxman-Markey bill, the Kerry-Boxer bill, the 
Kerry-Lieberman bill, all of which had provisions for sending 
funds to these foreign programs. They were not actually tax 
dollars because they used the disingenuous plan of calling 
something ``allowances.'' That is energy producers would have 
to buy allowances. That would generate funds and it is those 
funds that are going overseas.
    That is exactly--and if you talk to all the economists, 
they agree--it works very much like a CO2 tax and we can call 
those allowances CO2 tax or revenues. Every person I know that 
did modeling on both sides of the aisle of the cap-and-trade 
bills regarded those as carbon taxes. Maybe officially they 
weren't but sending money from energy consumers in the U.S. to 
foreign countries to try to get them to do something they 
clearly don't want to do because it is going to be very costly 
in terms of limiting their growth I think is a bad idea and I 
think it was hidden in these negotiations. I don't think they 
advertised the fact that there was going to be a big amount of 
money transferred.
    Mr. Griffith. Mr. Simmons, if I might, and it is one of 
those things that sometimes happens. I think I misheard your 
testimony so I want to make sure that it is clear because then 
when I went back to read it because I thought it was a really 
good point, I read it differently than I heard it. So let me 
make sure I get it clear. In your testimony you stated that in 
regard to the Mercury and Toxic Standards Rule that the EPA Web 
site indicates that it costs $10 billion a year and then what I 
thought I heard you say was was that the EPA said that it had a 
value of $6 billion. But I noticed in your written testimony 
that it is an ``M.'' I am assuming your written testimony so it 
is a $6 million benefit. I am assuming your written testimony 
is correct and that I just wasn't paying enough attention.
    Mr. Simmons. I could have easily misspoken. In EPA's 
regulatory impact analysis, the cost of the Mercury and Air 
Toxics Standard is $10 billion a year. The benefits for 
reducing mercury are between 500,000 and $6 million with an 
``M.''
    Mr. Griffith. And so that does leave a huge amount of money 
that could be used for other projects. And I see this all the 
time where it appears that the EPA is either making others 
spend a lot of money or they are spending money and yet we 
could take that money and use it for something that really 
matters like the cookstoves and do things in this country. And 
then I also liked your point in regard to the economic 
situations because my district is being hit very hard by what I 
believe Dr. Kreutzer--I always called it the War on Coal--used. 
What was it? Armageddon on Coal? What was the term you used?
    Mr. Kreutzer. I didn't mean to bring in a religious 
component----
    Mr. Griffith. Let me go back to my War on Coal.
    Mr. Kreutzer. War is fine.
    Mr. Griffith. But, you know, we are on the frontlines of 
that. We lost another 620 jobs just last week that are idled. 
Hopefully, they will come back in the not-too-distant future. 
But prior to that, we have had over 1,000 people in the region 
that have been laid off from various mines, and, you know, it 
is interesting because we are talking about the cookstoves in 
Third World countries but I envision in a cold winter--and we 
did not have a cold winter this last winter--a lot of folks in 
my district are going to have to live in one room even if that 
have a multi-room house with some type of a small little 
heater, probably either electric or kerosene because they can't 
afford to heat the whole house to a level that is comfortable, 
and even in that small room they are going to have to be 
bundled up. And does that not have greater effect, Mr. Simmons, 
on the health of those individuals than the value of the MATS 
compared with the $10 billion a year?
    Mr. Simmons. It has a large impact. I mean there is a great 
discrepancy between the health outcomes of the poor versus the 
rich and it has everything to do with which rich people and 
rich countries can afford more environmental amenities than 
poor people in poor countries. And so the point is the richer 
we are as people, the richer we are as a country, the safer we 
are and the better our environment is.
    Mr. Griffith. And Mr. Chairman, I see my time is up and I 
yield back.
    Mr. Whitfield. Thanks very much, Mr. Griffith.
    And I want to thank all four of you for taking time to come 
up today and talking about this legislation and the impact that 
it would have from your perspective. We appreciate your time 
once again. And we are going to keep this record open for at 
least 10 days if you have any additional material that anyone 
would like to put in, the record will be open.
    And Mr. Rush, do you have anything else?
    Mr. Rush. No, nothing else.
    Mr. Whitfield. Sorry we are not going to have a hearing 
tomorrow.
    But anyway, thank you all very much and we look forward to 
working with you as we decide whether to move forward or not. 
Thank you very much.
    Hearing is concluded.
    [Whereupon, at 1:05 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    [GRAPHIC] [TIFF OMITTED] 82931.122
    
    [GRAPHIC] [TIFF OMITTED] 82931.123
    
    [GRAPHIC] [TIFF OMITTED] 82931.124
    
    [GRAPHIC] [TIFF OMITTED] 82931.125
    
    [GRAPHIC] [TIFF OMITTED] 82931.126
    
    [GRAPHIC] [TIFF OMITTED] 82931.127
    
    [GRAPHIC] [TIFF OMITTED] 82931.128
    
    [GRAPHIC] [TIFF OMITTED] 82931.129
    
    [GRAPHIC] [TIFF OMITTED] 82931.130
    
    [GRAPHIC] [TIFF OMITTED] 82931.131
    
    [GRAPHIC] [TIFF OMITTED] 82931.132
    
    [GRAPHIC] [TIFF OMITTED] 82931.133
    
    [GRAPHIC] [TIFF OMITTED] 82931.134
    
    [GRAPHIC] [TIFF OMITTED] 82931.135
    
    [GRAPHIC] [TIFF OMITTED] 82931.136
    
    [GRAPHIC] [TIFF OMITTED] 82931.137
    
    [GRAPHIC] [TIFF OMITTED] 82931.138
    

                                 <all>

</pre></body></html>
